                              Office Of Inspector General
                            Corporation For National And
                                      Community Service




     Semiannual Report
       To Congress
October 1, 2003 – March 31, 2004
   Fiscal Year 2004 Semiannual Report No. 1




 1201 New York Avenue, NW., Suite 830
          Washington, DC 20525
 Telephone (202) 606-5000, extension 390
        Facsimile (202) 565-2795
          Hotline (800) 452-8210
        Website: www.cncsig.gov
                                                                                                            Table Of Contents

Executive Summary ......................................................................................................1
      Audit Section ...................................................................................................................................... 1
      Investigations Section ....................................................................................................................... 1
      Evaluation Section ............................................................................................................................. 2

Audit Section .................................................................................................................4
      Financial Management ....................................................................................................................... 5
      Grant Management and Oversight.................................................................................................... 6
      State Commission Pre-Audit Surveys.............................................................................................. 7
      Other Reviews Completed................................................................................................................. 7
      Audit Resolution................................................................................................................................. 8
      Proposed Management Decisions.................................................................................................... 8
      Notices of Final Action....................................................................................................................... 9

Investigations Section ................................................................................................11
      Summary of Cases ........................................................................................................................... 12

Review of Legislation and Regulations .....................................................................18
      Appropriations.................................................................................................................................. 19
      Proposed Corporation Rulemaking................................................................................................ 19
      Reviews of Other Corporation Guidance ....................................................................................... 19

Statistical and Summary Tables.................................................................................20
      I.      Inspector General Act Reporting Requirements ................................................................. 21
      II.     Reports with Questioned Costs ............................................................................................ 22
      III.    Reports with Recommendations that Funds be Put to Better Use................................... 23
      IV.     Summary of Audits with Overdue Management Decisions................................................ 24
      V.      Reports Described in Prior Semiannual Reports without Final Action............................. 25
 Executive Summary
Audit Section
 During this reporting period, the Office of Inspector General (OIG) conducted audits required by
 statute, as well as several reviews aimed to improve the operations of the Corporation for National
 and Community Service (Corporation). The Audit Section issued eight audit reports and three
 reviews.

 Of central importance to the Corporation’s fiscal integrity, the OIG issued its audit report on the
 Corporation’s fiscal year 2003 financial statements on November 14, 2003. We are pleased to report
 that the Corporation received an unqualified opinion on its financial statements, and no material
 weaknesses were identified. However, auditors considered the Corporation’s monitoring of grantee
 activities to be a reportable condition. As part of the financial statements audit, the OIG issued the
 fiscal year 2003 management letter, which identified issues not required to be reported in the financial
 statements audit. The management letter provided constructive recommendations to management
 for corrective action.

 In accordance with the Strengthen AmeriCorps Program Act, the OIG audited Corporation accounts
 containing appropriated funds for national service positions. This audit concluded that the
 Corporation’s National Service Trust Schedule of Fiscal 2003 Budgetary Resources and Obligation’s
 were presented fairly, in all material respects.

 Also during this period, the OIG completed pre-audit surveys of State commissions in Georgia,
 Louisiana, Nebraska, Oklahoma, and Puerto Rico. The OIG’s pre-audit surveys provide a preliminary
 assessment of the commissions’ pre-award and grant selection procedures, fiscal administration, and
 monitoring of subgrantees. The information gathered allows the OIG to determine the timing and
 extent of audit work necessary at each State commission.

 The Office of Inspector General also completed a review of the Corporation’s implementation of new
 enrollment procedures for AmeriCorps members. This review determined that, generally, the new
 enrollment procedures have been implemented. Additionally, the OIG completed a review of the
 Corporation’s implementation of recommendations made in a prior OIG report on the National Service
 Trust. This review determined that the Corporation has made improvements in its monitoring of
 enrollment and its management of National Service Trust funds.

 As part of our continuing effort to educate grantees on the audit process, the Audit Section gave a
 presentation at the annual Learn and Service America grantee meeting on how to prepare for an
 audit. Our auditors also gave this presentation to new State commission executive directors visiting
 Corporation headquarters. Furthering our goal to better educate Corporation stakeholders on the role
 of the OIG Audit Section, we prepared a brochure, entitled “All About Audits,” for distribution to
 grantees. This brochure provides a broad overview of the audit process.


Investigations Section
 The OIG Investigations Section continued to investigate allegations of fraud and abuse in Corporation
 programs and operations. During this reporting period, the Investigations Section received and
 processed 44 Hotline contacts, opened 21 investigative actions, and closed 26 investigative actions.
 Four matters were referred to the U.S. Department of Justice for prosecution, and five matters were
 referred to Corporation management for its action. Through the judicial system, OIG investigators
 were responsible for recovering $36,952.31 in Corporation funds.




 October 1, 2003 – March 31, 2004                                                                      1
                                                                   Executive Summary
 As part of our ongoing effort to prevent fraud, the Investigations Section made seven presentations
 during this reporting period to staff members of grantees, State commissions, and the Corporation.
 The presentations defined fraud, identified indicators of fraud, and discussed prevalent types of fraud.
 The Office of Inspector General investigative staff continued to visit AmeriCorps members at their
 service sites to discuss their community service experiences. The purpose of this initiative is twofold:
 it increases the visibility of the OIG, and it helps the OIG verify member information submitted to, and
 maintained by, the Corporation.


Evaluation Section
 In 2003, the Office of Inspector General established its Evaluation Section. The purpose of the
 Evaluation Section is to conduct reviews and program analyses that lead to valuable
 recommendations to the Corporation for National and Community Service. The recommendations will
 identify improvements and procedures to maximize the efficiency of Corporation programs and
 operations and minimize the potential for waste, fraud, and abuse.

 This year, the Evaluation Section began preliminary work on the first segment of a comprehensive,
 five-part evaluation of AmeriCorps. The review will include an evaluation of Corporation processes
 for awarding grants, reporting on performance, and monitoring controls in place for both programs
 and members. The first phase of this evaluation will provide an overview of AmeriCorps and compare
 the major program offices: AmeriCorps*State, AmeriCorps*National, AmeriCorps*NCCC, and
 AmeriCorps*VISTA. This phase of the evaluation will result in a report that should be included in the
 next Semiannual Report to Congress.

 From this overview, the Evaluation Section will issue four subsequent reports. Each report will
 address one of the AmeriCorps components, detail the specific processes of the program offices, and
 describe how these processes are implemented. The Evaluation Section may also initiate additional
 cross-program studies as needed.




 October 1, 2003 – March 31, 2004                                                                      2
                                                                  Executive Summary

About The Office Of Inspector General
In 1993, Congress created the Corporation for National and Community Service, along with this
Office of Inspector General, in the National and Community Service Trust Act. Like all Federal OIG
operations, our office is independent of the agency it oversees. Led by a presidential appointee, we
audit, investigate, and evaluate the Corporation’s programs, including AmeriCorps, Volunteers In
Service to America (VISTA), the National Civilian Community Corps, Learn and Serve America, and
the Senior Volunteer Corps.

The Office of Inspector General’s team of professional investigators, evaluators, and auditors
examine the Corporation’s operations. We also examine State community service programs that
receive and distribute the majority of Corporation funds, as well as local recipients of Federal funds.

Based on the results of our audits, investigations, and reviews, the OIG recommends Corporation
policies to promote economy and efficiency. We also strive to prevent and detect fraud and abuse of
taxpayer dollars that have been invested in Corporation programs.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the first
six months of fiscal year 2004. The report is being transmitted to the Chief Executive Officer of the
Corporation, the Corporation’s Board of Directors, and Members of Congress. It will also be made
available to the public.

All of our work is conducted in strict adherence to the Privacy Act and the Freedom of Information
Act. Our efforts are often aided by information supplied via the OIG Hotline (800-452-8210). The
Hotline allows Corporation employees, grantees, and program beneficiaries, among others, to report
concerns and suspected fraud.

For more information on the OIG and its work, please visit our Internet website: www.cncsig.gov, or
telephone us at (202) 606-5000, extension 390.
.




October 1, 2003 – March 31, 2004                                                                      3
                                                    Audit Section
                  The Office of Inspector General Audit Section is
                  responsible for reviewing the financial, administrative, and
                  programmatic operations of the Corporation for National
                  and Community Service. The Audit Section’s
                  responsibilities include the audit of the Corporation’s
                  annual financial statements, assessing the Corporation’s
                  management controls, reviewing Corporation operations,
                  and auditing individual grants, contracts, and cooperative
                  agreements funded by the Corporation. All OIG audit
                  reports are referred to Corporation management for its
                  action or information.




October 1, 2003 – March 31, 2004                                             4
                                                                                    Audit Section

Financial Management
 Audit of the Corporation for National and Community Service’s Fiscal Year 2003 Financial
 Statements (Audit Report 04-01)
 The Government Corporation Control Act (31 U.S.C. §§ 9101-10) requires the OIG to audit the
 Corporation’s annual financial statements. The OIG contracted with Cotton & Company LLP to audit
 the Corporation’s fiscal year 2003 statements. This audit, conducted in accordance with government
 auditing standards, resulted in an unqualified opinion on the Corporation’s Statement of Financial
 Position as of September 30, 2003, and the related Statements of Operations, Changes in Net
 Position, and Cash Flows for the year then ended.

 The Corporation expends the majority of its appropriated funds on grants to State and local
 governments, institutions of higher education, and other not-for-profit organizations. Since grant
 activities result in the most significant component of the Corporation’s financial statements, it is critical
 that the Corporation closely monitor grantee activity to ensure that grantees are complying with
 applicable laws and regulations related to the administration of grant awards. With that noted,
 auditors considered the Corporation’s monitoring of grantee activity to be a reportable condition.
 However, Cotton & Company and the OIG agreed that this reportable condition did not rise to the
 level of a material weakness.

 Independent Audit of the Corporation for National and Community Service’s Fiscal Year 2003
 Financial Statements – Management Letter (Audit Report 04-02)
 During the annual audit of the Corporation’s financial statements, the auditors became aware of
 several areas that present opportunities for the Corporation to strengthen internal control and
 operational efficiency. The OIG reported these areas for improvement to the Corporation in our
 management letter, issued on January 20, 2004. The letter made 31 recommendations in 6 areas:
 grants management, the National Service Trust, accounts receivable and debt collection, human
 resources and payroll, vendor payments, and information technology.

 The OIG made specific recommendations for improvement to the Corporation’s internal controls in
 the following areas:

     1. Grants Management – Improvements should be made to ensure that grantee internal control
        weaknesses and noncompliance issues are identified and properly resolved in a timely
        manner. In addition, the Corporation should improve the process for determining that all
        applicable administrative actions and required work of the grant have been completed. This
        improvement is needed to ensure that grants are closed in a timely manner.

     2. National Service Trust – The process of reviewing Web-Based Reporting System
        reconciliation reports should be strengthened. The Corporation should reemphasize the
        importance of processing member end-of-term forms in a timely manner. Trust personnel did
        not always follow interest forbearance procedures. Furthermore, the Corporation did not
        reconcile Trust investments in a timely manner. Trust personnel should also ensure that
        Trust disbursements occur within the allotted 30-day period.

     3. Accounts Receivable and Debt Collection – The Corporation should, among other things,
        document procedures for executing write-offs of VISTA receivables under $30. Also, the
        Corporation should review and emphasize debt collection policies to Corporation staff to
        ensure that they are consistently conducted. In addition, the Corporation should establish
        reconciliation criteria for cost-share agreements.

     4. Human Resources and Payroll – The Corporation should clearly document the policy that
        overtime be approved in writing and in advance. The Corporation should also implement
        procedures to improve the accuracy of time sheet reporting.



 October 1, 2003 – March 31, 2004                                                                           5
                                                                              Audit Section
     5. Vendor Payments – The Corporation should place stricter controls on responsible offices to
        ensure that procurement disbursements are made in a timely manner.

     6. Information Technology – Improvements could be made in the information security general
        control environment, and within the technical controls and practices in the network operating
        systems.

 Audit of the Corporation for National and Community Service’s National Service Trust
 Schedule of Fiscal 2003 Budgetary Resources and Obligations (Audit Report Number 04-03)
 The Office of Inspector General retained Cotton & Company LLP to conduct an audit of the
 Corporation’s National Service Trust Schedule of Fiscal 2003 Budgetary Resources and Obligations
 in accordance with the Strengthen AmeriCorps Program Act. The Strengthen AmeriCorps Program
 Act directs that, beginning in fiscal year 2003, Trust obligations be recorded at the time the
 Corporation enters into an enforceable agreement with a National Civilian Community Corps (NCCC)
 member or a member of Volunteers in Service to America (VISTA). In addition, the Act requires the
 Corporation to record Trust obligations when it awards a grant to an AmeriCorps*State or
 AmeriCorps*National program. The Act also directs that the obligational amount be based on the
 estimated value of the education benefit, factoring in enrollment estimates, earning and usage rates,
 and the time value of funds. The Act further requires the Corporation to establish a reserve account
 in the event that estimates used to calculate obligational amounts are insufficient to pay for earned
 education awards.

 In summary, the audit concluded that the Corporation’s fiscal year 2003 Trust budgetary resources
 and obligations are fairly presented in all material respects.


Grant Management and Oversight
 The Corporation awards grants to State and local governments, State commissions, institutions of
 higher education, and other not-for-profit organizations. Grantees are required to expend funds only
 for allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic
 and financial compliance with the terms of their grant agreements. The Corporation is responsible for
 ensuring that grantees comply with applicable laws and regulations related to the administration of
 grant awards in the areas of Federal cash management, human resources, and information
 technology.

 The Office of Inspector General Audit Section conducts audits of Corporation grants and grantees to
 assess whether reported costs are allowable under Federal regulations and whether grantees are
 complying with the terms and conditions of their awards. Our reports on Corporation grants also
 include recommendations for correcting deficiencies. Typically, the recommendations call for
 grantees to reimburse questioned costs, establish and implement policies and procedures to prevent
 future instances of noncompliance, and improve internal controls. We also make recommendations
 for more effective Corporation oversight, and improvements in Corporation grants management.

 The Corporation awards grants and cooperative agreements to State commissions to assist national
 and community service programs in each State. The Corporation awards approximately three-
 quarters of its AmeriCorps*State and National funds to State commissions. In turn, the State
 commissions fund and are responsible for the oversight of the sub-grantees that execute the
 programs. Working for these sub-grantees, AmeriCorps members help their communities meet
 educational, human, environmental, and public safety needs.

 At the close of this reporting period, six State commission audits are currently in progress: South
 Carolina, Rhode Island, Colorado, Nevada, Vermont, and Hawaii.




 October 1, 2003 – March 31, 2004                                                                   6
                                                                                Audit Section
State Commission Pre-Audit Surveys
 Beginning in Fiscal Year 1999, the OIG initiated a series of pre-audit surveys intended to assess risk
 and to gather basic information on State commission operations and funding. The pre-audit surveys
 are designed to provide a preliminary assessment of the commissions’ pre-award and grant selection
 procedures, fiscal administration, and monitoring of subgrantees. The surveys are also intended to
 provide information on other audit coverage that may be afforded by the Single Audit Act (31 U.S.C.
 §§ 7501-07). The information gathered allows the OIG to determine the timing and extent of audit
 work necessary at each State commission.

 During this reporting period, the OIG issued pre-audit survey reports for the State commissions of
 Georgia, Nebraska, Louisiana, Oklahoma, and Puerto Rico. The Office of Inspector General has
 commenced work on pre-audit surveys for an additional eight State commissions. Once these eight
 reports are issued, the OIG will have completed our initiative to conduct pre-audit surveys of all State
 commissions.

 For each pre-audit survey, the OIG issued a report communicating the results and recommendations
 for improvement at each commission. The reports also recommend that the Corporation follow up
 with each commission to determine whether the commission has taken appropriate corrective actions
 to address the conditions identified.


Other Reviews Completed
 Interim Report on the Assessment of the Implementation of New Enrollment Procedures
 (Report 04-05)
 The Office of Inspector General completed an initial assessment of the Corporation’s recently
 implemented AmeriCorps enrollment procedures. The purpose of the assessment was to determine
 the status of the enrollment procedures and whether the procedures are effective for tracking
 AmeriCorps member enrollment. We determined that, generally, the new enrollment procedures
 have been implemented. The new enrollment procedures allow the Corporation to track the number
 of slots that can be awarded, and to track the number of enrollees who count against those slots.
 This is a significant improvement over past practices.

 Follow-Up Assessment of the Corporation’s Implementation of Recommendations in the
 National Service Trust Report (Report 04-10)
 The Office of Inspector General completed a follow-up assessment of recommendations made in the
 National Service Trust Report. The purpose of this assessment was to provide an update on the
 status of the Corporation’s efforts to implement the five recommendations included in the Trust
 Report. The recommendations are designed to improve the Corporation’s monitoring of AmeriCorps
 member enrollment. This assessment determined that the Corporation has made essential
 improvements in its monitoring of enrollment and its management of National Service Trust funds.

 Internal Review of Selected Management Controls (Report 04-11)
 The Inspector General initiated this internal review as part of the OIG’s self-assessment of controls to
 determine if procedures are effectively designed, documented, and operating as intended within the
 OIG. This review included OIG procedures associated with property management, travel expenses,
 funds control, and records management. Opportunities were noted to improve the design and
 documentation of these controls. Management initiated or completed implementation of controls
 during the course of the review.




 October 1, 2003 – March 31, 2004                                                                      7
                                                                                 Audit Section
Audit Resolution
 The Corporation’s audit resolution process essentially consists of four steps. After the Office of
 Inspector General issues an audit report, the Corporation normally issues a Proposed Management
 Decision (PMD) responding to the report’s findings and recommendations, within five months of the
 audit report’s issuance. If the OIG disagrees with management’s proposed corrective actions, the OIG
 submits written comments to the Corporation within 30 days of receiving the PMD. Not more than six
 months after an audit report is issued, the audit resolution policy requires that the Corporation’s Chief
 Financial Officer respond to the audit with a Management Decision describing approved corrective
 actions and a timetable for implementation. Final action on corrective measures must be completed
 within 12 months of the audit report’s issuance. Corporation management subsequently transmits a
 Notification of Final Action when all corrective measures have been completed and the responsible
 management official has verified the actions. At this point, management consider the audit to be fully
 resolved.


Proposed Management Decisions
 During this reporting period, the Corporation notified the Office of Inspector General of the following
 proposed management decisions:

     •   Audit Report 02-10, Incurred-Cost Audit of Grants Awarded to the Kentucky Commission on
         Community Volunteerism and Service

     •   Audit Report 02-11, Incurred-Cost Audit of Grants Awarded to the Missouri Community
         Service Commission

     •   Audit Report 02-14, Incurred-Cost Audit of Grants Awarded to the Michigan Community
         Service Commission.

     •   Audit Report 02-17, Audit of Corporation for National and Community Service Grants
         Awarded to New Jersey Commission on National and Community Service

     •   Audit Report 02-20, Incurred-Cost Audit of Grants Awarded to the New Hampshire
         Commission on National and Community Service

     •   Audit Report 02-21, Incurred-Cost Audit of Grants Awarded to the Alabama Governor’s
         Office on National and Community Service

     •   Audit Report 03-03, Incurred-Cost Audit of Grants Awarded to the Indiana Commission for
         Community Service and Volunteerism

     •   Audit Report 03-06, Incurred-Cost Audit of Grants Awarded to the Maine Commission for
         Community Service

     •   Audit Report 03-08, Audit of Corporation for National and Community Service Grants
         Awarded to Connecticut Commission on National & Community Service.

     •   Audit Report 03-13, Interim Audit of Costs Claimed by Parents As Teachers National Center,
         Incorporated Under Grant Agreement No. 01SPHMO004

     •   Audit Report 03-14, Audit of Costs Claimed by The Navajo Nation Under Grant No.
         339W023-21, Foster Grandparent Program




 October 1, 2003 – March 31, 2004                                                                       8
                                                                                Audit Section
     •   Audit Report 04-04, Pre-Audit Survey of the Georgia Commission for Service and
         Volunteerism.

     •   Audit Report 04-06, Pre-Audit Survey of the Nebraska Volunteer Service Commission




Notices of Final Action
 A Notice of Final Action is a Corporation management report indicating that it has completed
 corrective actions. During this reporting period, the Office of Inspector General received the following
 Notices of Final Action:

     •   Audit Report 00-24, Pre-Audit Survey Report of the Alaska State Community Service
         Commission

     •   Audit Report 02-03, Audit of Corporation for National and Community Service Grant Number
         97LHEDC001 to American Association of Community Colleges, Washington D.C.

     •   Audit Report 02-10, Incurred-Cost Audit of Grants Awarded to the Kentucky Commission on
         Community Volunteerism and Service

     •   Audit Report 02-11, Incurred-Cost Audit of Grants Awarded to the Missouri Community
         Service Commission.

     •   Audit Report 02-14, Incurred-Cost Audit of Grants Awarded to the Michigan Community
         Service Commission.

     •   Audit Report 02-16, Audit of Corporation for National and Community Service Grants
         Awarded to Alaska State Community Service Commission

     •   Audit Report 02-20, Incurred-Cost Audit of Grants Awarded to the New Hampshire
         Commission on National and Community Service

     •   Audit Report 03-13, Interim Audit of Costs Claimed by Parents As Teachers National Center,
         Incorporated Under Grant Agreement No. 01SPHMO004

     •   Audit Report 04-04, Pre-Audit Survey of the Georgia Commission for Service and
         Volunteerism.




 October 1, 2003 – March 31, 2004                                                                      9
                                                                       Audit Section
                                      Audit Reports Issued
                                   October 1, 2003 – March 31, 2004
  Report                                                           Dollars             Dollars
             Issue Date                Report Name
  Number                                                          Questioned        Unsupported
                                                                      (Dollars in thousands)
   04-01       11/14/03   Audit of the Corporation for National      N/A                N/A
                          and Community Service’s Fiscal Year
                          2003 Financial Statements

   04-02       01/20/04   Independent Audit of the Corporation        N/A              N/A
                          for National and Community Service’s
                          Fiscal    Year     2003    Financial
                          Statements Management Letter


   04-03       11/19/03   Audit of the Corporation for National        0                0
                          and Community Service’s National
                          Service Trust Schedule of Fiscal 2003
                          Budgetary Resources and Obligations


   04-04       11/28/03   Pre-Audit Survey of the Georgia              0                0
                          Commission    for  Service and
                          Volunteerism

   04-05       11/03/03   Interim Report on the Assessment of         N/A              N/A
                          the     Implementation   of   New
                          Enrollment Procedures

   04-06       01/28/04   Pre-Audit Survey of the Nebraska             0                0
                          Volunteer Service Commission

   04-07       02/17/04   Pre-Audit Survey of the Louisiana           $56              $45
                          Serve Commission

   04-08       02/18/04   Pre-Audit Survey of the Oklahoma             0                0
                          Community Service Commission

   04-09       03/09/04   Pre-Audit Survey of the Puerto Rico          4                4
                          State Commission on Community
                          Service

   04-10       01/16/04   Follow-Up     Assessment    of  the         N/A              N/A
                          Corporation's    Implementation   of
                          Recommendations in the National
                          Service Trust Report

   04-11       01/07/04   Internal Review     of      Selected        N/A              N/A
                          Management Controls

                                          TOTAL                       $60              $49
   N/A: Not applicable.




October 1, 2003 – March 31, 2004                                                            10
                                    Investigations Section
                  The Office of Inspector General Investigations Section is
                  responsible for the detection and investigation of fraud,
                  waste, and abuse in Corporation for National and
                  Community Service programs and operations. The
                  Investigations Section carries out these responsibilities by
                  investigating allegations of criminal activities involving the
                  Corporation’s employees, contractors, and grant
                  recipients. Criminal investigations are presented to the
                  U.S. Attorney or, in some cases, the local prosecutor for
                  criminal prosecution and monetary recovery. Some
                  investigative reports are referred to Corporation
                  management for its administrative action or information.




October 1, 2003 – March 31, 2004                                             11
                                                                Investigations Section

Summary of Cases
 At the beginning of this reporting period, 29 investigative actions were pending in the OIG
 Investigations Section. During this reporting period, OIG investigators launched 21 investigative
 actions and closed 26 investigations. Twenty-four investigative actions were pending at the end of the
 period.

 Cases Closed This Period
 Improper Expenditures of Grant Funds (OIG Report of Investigation 02-013)
 The Office of Inspector General investigated an allegation, reported by a State commission, that a
 State grant recipient made improper expenditures of grant funds. The OIG investigation disclosed
 evidence that a former grant administrator and a former executive director prepared, and caused to
 be submitted, a Periodic Expense Report falsely claiming that a grant recipient paid for a number of
 laptop computers and cellular telephones. The Office of Inspector General also determined that a
 third staff member, a former administrative director, diverted a significant amount of AmeriCorps
 funds to pay the recipient’s staff payroll. These funds should not have been used for payroll since
 they were claimed as reimbursement for a computer purchase, which appears to have never
 occurred. The U.S. Department of Justice initially accepted this investigation and was pursuing
 criminal prosecution, but has since declined to prosecute based on the low dollar amount involved.
 Local prosecutors initially considered this investigation for prosecution but ultimately declined to
 pursue prosecution, based in part on the low dollar loss. The Corporation is recouping these funds
 through administrative remedies.

 Misuse of Education Award (OIG Report of Investigation 03-042)
 The Office of Inspector General investigated an allegation, reported by Corporation management, that
 a former AmeriCorps member used her education award, properly paid to the member’s school
 account, to purchase textbooks and school supplies that she subsequently sold to another student.
 The investigation found that the former member could use the education award deposited in her
 school account to purchase any item at the campus bookstore and that the resale of such items was
 not a violation of Corporation policy. The Office of Inspector General coordinated with the school,
 which is monitoring all future purchases by the former member.

 Allegations of Improper Grant Award Procedures (OIG Report of Investigation 03-041)
 The Office of Inspector General investigated allegations, reported by a nonprofit organization, that its
 2002 competitive grant application was denied due to favoritism or improper Corporation grant award
 procedures. The investigation found no substance to the allegations.

 Allegations of Fraudulent Time Sheets (OIG Reports of Investigation 03-038 and 03-039)
 The Office of Inspector General investigated allegations, reported by a former AmeriCorps*VISTA
 member, that AmeriCorps members at the VISTA program had been falsifying their time sheets. The
 investigation found that one AmeriCorps member had left the program without completing his time
 sheets but received no credit for the service hours listed on these time sheets. The remaining
 allegations were found to be without substance, and investigators found no evidence that time sheets
 were being falsified.

 Examination of Gift Fund Use (OIG Report of Investigation 03-034)
 The Office of Inspector General investigated allegations, reported by a confidential source, that
 improper payments might have been made to a Corporation contractor. The investigation found that
 the payments were made with monies from the Corporation’s Gift Fund, a Corporation account
 created to accept contributions from the private sector. The contractor’s documents did not appear to
 be improper, but the investigation did uncover questions about the manner in which the Gift Fund was
 being managed. Information obtained in this investigation was provided to the OIG Audit Section,
 which is conducting a financial and compliance audit of the Gift Fund.



 October 1, 2003 – March 31, 2004                                                                    12
                                                              Investigations Section
Embezzlement of Program Funds (OIG Report of Investigation 03-026)
The Office of Inspector General investigated allegations, reported by a State commission, that a
former program employee and two accomplices embezzled a large sum of money from a program, a
small portion of which were AmeriCorps funds. An investigation by local law enforcement and the
Federal Bureau of Investigation resulted in the convictions of the former program employee and one
of the accomplices. The other accomplice is a fugitive from justice. The OIG recommended that
Corporation management consider debarring the former program employee and the accomplice who
were found guilty.

AmeriCorps Member Submits Fraudulent Time Sheets
(OIG Report of Investigation 03-005)
The Office of Inspector General investigated allegations, reported by a State commission, that a
former AmeriCorps member falsified his time sheets and forged his supervisor’s signatures on the
documents. The former member admitted forging the signatures and offered to repay the program the
$1,692.85 that he wrongfully received as a result of the fraudulent time sheets. Local prosecutors are
pursuing prosecution after the U.S. Department of Justice declined to pursue the case because of the
low dollar amount involved. The former member has been indicted, and a warrant was issued for his
arrest after he failed to appear at his arraignment. The former member is still a fugitive from justice
and further information will be reported if he is arrested.

Allegations of Improper Hiring Action (OIG Report of Investigation 03-035)
The Office of Inspector General investigated allegations that merit principles had not been followed
during the hiring of two Corporation management employees. Investigation found that these
allegations were without substance and merit principles had been followed.

Travel Card Review (OIG Reports of Investigation 04-003, 04-018, and 04-014)
The Office of Inspector General completed a review of the use of the government travel credit card by
Corporation employees during fiscal year 2003. OIG investigators found that one Corporation
employee mistakenly used the travel card to make a small personal purchase. Investigators found
that another Corporation employee allowed his government travel card to be used by a friend while
on vacation in Mexico. The Office of Inspector General reported the misuses of the travel card to
Corporation management for appropriate action.

Allegations of an Improper Contract Award/Time and Attendance Fraud
(OIG Report of Investigation 04-006)
The Office of Inspector General completed an investigation into allegations that a Corporation
employee committed time and attendance fraud by preparing fraudulent time sheets and improperly
hiring a temporary employee. The investigation determined that the employee did not prepare
fraudulent time sheets, but did violate Corporation policy by hiring a temporary employee for days in
excess of the period allowed by Corporation policy. This information was provided to Corporation
management for appropriate action.

Allegations of Improper Hiring Action (OIG Report of Investigation 03-024)
The Office of Inspector General completed an investigation into allegations that a member of
Corporation management was improperly hired. The investigation determined that it appeared the
employee was noncompetitively hired for the position. The Counsel to the Office of Inspector General
expressed the opinion that the hiring was improper and contrary to Federal regulations and the
Corporation Personnel System Handbook.          This investigation was reported to Corporation
management for its action.

Allegations of Legislative Lobbying (OIG Report of Investigation 03-031)
The Office of Inspector General completed an inquiry into allegations that AmeriCorps grantees were
wrongfully involved in lobbying efforts designed to sway elected officials to support national service.
This inquiry found that none of the monitored activities constituted a violation of lobbying laws.




October 1, 2003 – March 31, 2004                                                                   13
                                                                Investigations Section

Cases Open at End of Period
False Claims Violation (OIG Report of Investigation 01-095)
The Office of Inspector General is investigating an AmeriCorps grant recipient after a member of
Corporation management reported that the grant recipient used Corporation funds for purposes other
than in support of the grant. The recipient is alleged to have knowingly withdrawn Corporation grant
funds in excess of grant support needs to keep his program operating. The U.S. Department of
Justice’s Affirmative Civil Enforcement Coordinator accepted this investigation for prosecution as a
civil false claims matter. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.

Embezzlement of AmeriCorps Funds (OIG Report of Investigation 03-009)
The Office of Inspector General is investigating an allegation, reported by Corporation management,
that a former program director of an AmeriCorps grant recipient embezzled AmeriCorps funds.
Evidence indicates that the former director embezzled a significant amount of program funds, a
portion of which were AmeriCorps grant funds. Evidence also indicates that the former director
utilized AmeriCorps members to perform services outside the scope of the grant at the former
director’s private businesses and organizations. AmeriCorps members also wrongly received credit
toward their education awards for this service. The U.S. Department of Justice initially accepted this
investigation for criminal prosecution and then declined based on the low dollar loss of the theft. The
Office of Inspector General presented this investigation to local authorities, who are pursuing
prosecution. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.

Childcare Fraud (OIG Report of Investigation 02-008)
The Office of Inspector General is investigating an allegation, reported by a grant recipient, that a
former AmeriCorps member and her childcare providers submitted false AmeriCorps*Care
applications, while knowing that the providers would not be furnishing the services as claimed. The
investigation revealed evidence that the former member and the childcare providers submitted false
monthly attendance reports. This allowed the childcare providers to receive thousands of dollars in
AmeriCorps*Care subsidies, which they shared with the former member. Further investigation
disclosed evidence that the former member received State childcare subsidies during the same
period by conspiring with two different childcare providers to defraud the State system in the same
manner. These childcare providers received a significant amount of Federal funds as part of their
State childcare subsidies, which they also shared with the former member.

All the childcare providers admitted to their involvement in the fraud and conspiracy. The former
member admitted to some involvement. In addition, a review of the former member’s time sheets
revealed that, although the former member was certified as eligible to receive an education award,
only a small portion of the former member’s service hours were documented. Of these hours, 185
were on time sheets that bore the forged signature of the former member’s supervisor. The U.S.
Department of Justice accepted this investigation and pursued criminal prosecution. The former
member pled guilty in the U.S. District Court of Connecticut. The former member was sentenced to
five years probation, restitution of $19,979.61, and a $100 court fee. The Office of Inspector General
has recommended that management consider debarment, and the Corporation is pursuing
debarment. The results will be reported in a subsequent semiannual report.

VISTA Stipend Checks Theft (OIG Report of Investigation 03-016)
The Office of Inspector General is investigating an allegation, reported by Corporation management,
that an unknown person intercepted, forged, and cashed the AmeriCorps*VISTA stipend payment
checks of a former VISTA member over a six-month period. A suspect was identified and the
information was provided to the Federal Bureau of Investigation, which has assumed responsibility as
the lead investigative agency.




October 1, 2003 – March 31, 2004                                                                      14
                                                               Investigations Section
Personal Use of AmeriCorps Program Credit Card (OIG Report of Investigation 03-014)
The Office of Inspector General is investigating an allegation, reported by a State commission, that a
former AmeriCorps program director used the AmeriCorps program’s credit card for personal use.
Evidence indicates that the former director used the card to obtain cash advances and to purchase
personal items. The U.S. Department of Justice, citing the low dollar amount involved, declined to
accept this investigation for prosecution. Local law enforcement and the local prosecutor charged the
former director with felony theft. The former director pled guilty to one felony count of theft and has
already made restitution of $2,073.76. The former director received a 14-month sentence, which was
set aside pending successful completion of three years’ probation. The Office of Inspector General
will recommend that Corporation management consider debarring the former director. The results will
be reported in a subsequent semiannual report.

Personal Use of AmeriCorps Program Credit Card and Embezzlement
(OIG Report of Investigation 03-015)
The Office of Inspector General is investigating an allegation, reported by Corporation management,
that a former associate director of an AmeriCorps program misused the program’s credit card.
Evidence indicates that the former director used the card for personal use and embezzled a
significant amount of program funds. The U.S. Department of Justice has accepted this investigation
and is pursuing a criminal prosecution. The former associate director has been indicted. The
investigation is ongoing and final results will be reported in a subsequent semiannual report.

Theft of Program Funds (OIG Report of Investigation 02-028)
The Office of Inspector General is investigating an allegation, reported by Corporation management,
that an executive director of a grant recipient was diverting Corporation program funds to cover
personal expenditures and business expenses unrelated to program operations. The investigation
found evidence that the executive director and the director’s spouse had diverted a significant amount
of Corporation funds. The U.S. Department of Justice has accepted this investigation and is pursuing
criminal prosecution. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.

Theft of Program Funds (OIG Report of Investigation 03-018)
The Office of Inspector General is investigating an allegation, reported by a Corporation State Office,
that a former bookkeeper at a program embezzled a significant amount of program funds, a small
portion of which were Foster Grandparent Program funds. Local law enforcement and prosecutors
are pursuing prosecution. The investigation is ongoing and final results will be reported in a
subsequent semiannual report.

Fraudulent Receipt of VISTA Stipend (OIG Report of Investigation 03-040)
The Office of Inspector General is investigating an allegation, reported by a Corporation State Office,
that an AmeriCorps*VISTA member left the program but continued to receive her stipend, allowing
her to collect a significant amount of Corporation funds to which she was not entitled. The
investigation found that the program failed to verify member attendance and also failed to provide
written documentation of member attendance in its biweekly reports. The U.S. Department of Justice
has accepted this investigation for criminal prosecution. The investigation is ongoing and final results
will be reported in a subsequent semiannual report.

Allegations of Fraud (OIG Report of Investigation 02-007)
The Office of Inspector General is investigating allegations, reported by a State commission, that a
program executive director and the chief financial officer used program funds for their personal use.
The investigation found evidence supporting this allegation. Initially, the Federal Bureau of
Investigation was the lead investigative agency but, due to other commitments, was unable to pursue
this matter fully. The U.S. Department of Justice has since declined to prosecute this matter in favor
of local prosecution. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.




October 1, 2003 – March 31, 2004                                                                    15
                                                              Investigations Section
Fraudulent Receipt of an Education Award (OIG Report of Investigation 04-009)
The Office of Inspector General is investigating allegations, reported by Corporation management,
that a former AmeriCorps member obtained his education award using fraudulent paperwork. The
investigation determined that the member prepared fraudulent paperwork that allowed him to use his
education award to purchase an automobile. The U.S. Department of Justice has accepted this
investigation and is pursuing criminal prosecution. The investigation is ongoing and final results will
be reported in a subsequent semiannual report.

Fraudulent AmeriCorps Application Fees (OIG Report of Investigation 04-015)
The Office of Inspector General is investigating allegations that a former program director charged
prospective AmeriCorps members an “application fee” of $50-$100 to participate in the program. The
investigation is ongoing and final results will be reported in a subsequent semiannual report.




October 1, 2003 – March 31, 2004                                                                   16
                                                                  Investigations Section

                                     Summary Of Cases

   Opened and Closed

   Number of Cases Open at Beginning of Reporting Period                                      29

   Number of New Cases Opened this Reporting Period                                           21

   Number of Cases Closed this Period with Significant Findings                               9

   Number of Cases Closed this Period with no Significant Findings                            17

   Total Cases Closed this Reporting Period                                                   26

   Number of Cases Open at End of Reporting Period                                            24

   Referred

   Number of Cases Referred for Prosecution this Reporting Period                             4

   Number of Cases Accepted for Prosecution this Reporting Period                             3

   Number of Cases Declined for Prosecution this Reporting Period                             1

   Number of Cases Pending Prosecutorial Review                                               1

   Number of Cases Pending Adjudication                                                       11

   Recommendations to Management

   Number of Investigative Recommendations Referred to Management                              9*

   Number of Investigative Recommendations Pending from Previous Reporting Periods            12 **

* These recommendations derive from five different investigative matters. The OIG recommended
debarring five individuals, including two individuals from one investigation. The remaining four
recommendations pertain to a loss of funds.
** These recommendations derive from three different investigative matters, including one
recommendation to consider debarring an individual. The remaining recommendations were made in the
National Service Trust Report and the Alternative Personnel System Report.




October 1, 2003 – March 31, 2004                                                                     17
                                   Review of Legislation and
                                                Regulations
                  Section 4(a) of the Inspector General Act directs the Office
                  of    Inspector    General      to   review     and    make
                  recommendations about existing and proposed legislation
                  and regulations relating to the Corporation’s programs and
                  operations. The Office of Inspector General reviews
                  legislation and regulations to determine their impact on the
                  economy and efficiency of the Corporation’s administration
                  of its programs and operations. The Office of Inspector
                  General also reviews and makes recommendations on the
                  impact that legislation and regulations may have on efforts
                  to prevent and detect fraud and abuse in Corporation
                  programs and operations. The Office of Inspector General
                  draws on its audit and investigative experience as the
                  basis for its comments.




October 1, 2003 – March 31, 2004                                            18
                                Review Of Legislation And Regulations

Appropriations
 During this reporting period, the OIG monitored and reviewed several pieces of legislation related to
 the Corporation, including the annual appropriations act and conference report which directed the
 OIG to engage in additional audit activity. In accordance with these new requirements, the OIG
 modified its fiscal year 2004 audit plan to include audits of the top ten percent of AmeriCorps
 grantees receiving the most grant funds. The OIG plans to continue to audit State commissions, but
 will also expand its focus to include audits of Corporation grants awarded directly to other entities.


Proposed Corporation Rulemaking
 On March 4, 2004, the Corporation published a notice in the Federal Register of its intent to engage
 in rulemaking to codify Corporation guidance on issues that pertain to grant programs. These issues
 include sustainability requirements for programs, grantee match requirements, criteria for grantee
 performance measures and evaluation, qualifications of AmeriCorps members serving as reading
 tutors, timing of the grant cycle, program selection criteria, the application process, and funding for
 the second and third years of a three-year grant. The Office of Inspector General will monitor this
 process, and will make recommendations to both Corporation management and the Congress.


Reviews of Other Corporation Guidance
 While Section 4(a)(2) of the Inspector General Act requires only that the OIG review existing laws and
 proposed regulations, the Corporation often uses less formal means to impose requirements, issue
 instructions, or provide guidance to Corporation staff, State offices, and program grantees. These
 less formal means include issuing Notices of Funds Availability, Program Guidelines, Grant
 Application Instructions, Grant Provisions, as well as OMB-approved forms and other documents.
 Such guidance can also affect Corporation programs and grantee operations significantly. The Office
 of Inspector General submits comments and recommendations to the Corporation when a proposed
 policy could be improved to increase economy or efficiency, or prevent or detect fraud and abuse.

 In January, the Corporation invited comment from Corporation managers on proposed revisions to
 forms used by Corporation grantees to enroll and exit AmeriCorps volunteers. Drawing on our
 experience in audits of State commissions, the OIG suggested adding questions to the AmeriCorps
 member enrollment form with respect to eligibility requirements mandated by the National and
 Community Service Trust Act of 1993. The OIG recommended including additional questions
 concerning citizenship, post-education commitments, prior service, and release for cause or
 compelling personal circumstances. The OIG also suggested adding a signature line where
 members attest to the truthfulness of the information supplied. The OIG also recommended other
 enhancements to the AmeriCorps member exit form. These include a requirement that the grantee’s
 program director recommend a member for a second term of service, and that the program director
 and AmeriCorps member attest to the accuracy of the number of service hours completed.




 October 1, 2003 – March 31, 2004                                                                   19
                                                Statistical and
                                              Summary Tables
                       The statistical and summary tables in this section are
                       submitted in compliance with the requirements
                       enumerated in the Inspector General Act.




October 1, 2003 – March 31, 2004                                           20
                                                                                          Tables

I.           Inspector General Act Reporting Requirements
     This table cross-references the reporting requirements prescribed by the Inspector General Act of
     1978, as amended, to the specific pages in the report where they are addressed.

         Section                                Requirement                                  Page
           4 (a)(2)     Review of legislation and regulations                                  19

           5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                        administration of Corporation programs and operations

           5 (a)(2)     Recommendations with respect to significant problems, abuses      Throughout
                        and deficiencies found in the administration of Corporation
                        programs and operations

           5 (a)(3)     Prior significant recommendations on which corrective action           25
                        has not been completed

           5 (a)(4)     Matters referred to prosecutorial authorities                          17

           5 (a)(5)     Summary of instances where information was refused                 None this
                                                                                            period
           5 (a)(6)     List of audit reports by subject matter showing dollar value of      10
                        questioned costs and recommendations that funds be put to
                        better use.

           5 (a)(7)     Summary of significant reports                                    Throughout

           5 (a)(8)     Statistical table showing number of reports and dollar value of        22
                        questioned costs

           5 (a)(9)     Statistical table showing number of reports and dollar value of        23
                        recommendations that funds be put to better use

          5 (a)(10)     Summary of each audit issued before this reporting period for          24
                        which no management decision was made by end of reporting
                        period

          5 (a)(11)     Significant revised management decisions                           None this
                                                                                            period
          5 (a)(12)     Significant management decisions with which the Inspector          None this
                        General disagrees                                                   period




     October 1, 2003 – March 31, 2004                                                               21
                                                                                            Tables


II.          Reports with Questioned Costs



                                                                   Federal Costs

                   Report Category                    Number Questioned       Unsupported
                                                                   (Dollars in thousands)
      A. Reports for which no management decision       13        $24,653                   $18,582
         had been made by the commencement of the
         reporting period

      B. Reports issued during the reporting period     2              60                       49

      C. Total Reports (A + B)                          15         24,713                    18,631

      D. Reports for which a management decision        11
         was made during the reporting period

         I. Value of disallowed costs                               1,914                     1,400

         II. Value of costs not disallowed                         20,878                    15,396

      E. Reports for which no management decision       4          $1,921                    $1,835
         had been made by the end of the reporting
         period (C - D)

      F. Reports with questioned costs for which no     2          $1,860                    $1,786
         management decision was made within six
         months of issuance




  October 1, 2003 – March 31, 2004                                                                    22
                                                                                          Tables


III.       Reports with Recommendations that Funds
           be Put to Better Use

                       Report Category                   Number *         Dollar Value
                                                                     (Dollars in thousands)
        A. Reports for which no management decision           2                $1,664
           had been made by the commencement of
           the reporting period

        B. Reports issued during the reporting period         0                  $0

        C. Reports for which a management decision
           was made during the reporting period

            i. Value of recommendations agreed to by          2                $1,664
            management

            ii. Value of recommendations not agreed to        0                  $0
            by management

        D. Reports for which no management decision           0                  $0
           had been made by the end of the reporting
           period

        E. Reports for which no management decision           0                  $0
           was made within six months of issuance




       *The Audit Section performed predominately cost-incurred and compliance audits that resulted in
       questioned costs and noncompliance findings. These types of audits typically do not lead to
       recommendations that funds be put to better use.




   October 1, 2003 – March 31, 2004                                                                23
                                                                                       Tables

IV.        Summary of Audits with Overdue Management Decisions



                                                        Federal       M gm t.     Status as of
      Report                                            Dollars      Decision      M arch 31,
      Num ber                  Title                  Q uestioned     Due*            2004
       03-04    Incurred-Cost Audit of G rants         $608,210      01/25/04     A Proposed
                Aw arded to the W isconsin National                               Managem ent
                and Com m unity Service Board                                     Decision has
                                                                                    not been
                                                                                 provided to the
                                                                                      O IG
       03-05    Incurred-Cost Audit of G rants         1,252,054     03/30/04     A Proposed
                Aw arded to the O hio Com m unity                                 Managem ent
                Service Council                                                   Decision has
                                                                                    not been
                                                                                 provided to the
                                                                                      O IG
                               Total                  $1,860,264

   *Under section 6009 of the Federal Acquisition Stream lining Act of 1994, as am ended, a final
  m anagem ent decision m ust be m ade within six m onths of the final audit report's issuance and
  corrective actions m ust be com pleted within one year.




 October 1, 2003 – March 31, 2004                                                               24
                                                                              Tables

V.         Reports Described in Prior Semiannual Reports
           without Final Action



                                                                             Final
     Report                                                       Date      Action
     Number                         Title                        Issued      Due*
       01-31    Report on the Review of the Corporation for      07/09/01   07/09/02
                National and Community Service National Direct
                Grant Application Review Process

       02-17    Audit of Corporation for National and            09/30/02   09/30/03
                Community Service Grants Awarded to the New
                Jersey Commission on National and Community
                Service

       02-21    Incurred-Cost Audit of Grants Awarded to the     09/30/02   09/30/03
                Alabama Governor's Office on National and
                Community Service

       03-03    Incurred-Cost Audit of Grants Awarded to the     03/27/03   03/27/04
                Indiana Commission for Community Service and
                Volunteerism

       03-14    Audit of Costs Claimed by The Navajo Nation      03/28/03   03/28/04
                Under    Grant   No.   399W 023-21,  Foster
                Grandparent Program



     *Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as
     amended, a final management decision must be made within six months of the final
     report's issuance and corrective actions must be completed within one year.




 October 1, 2003 – March 31, 2004                                                       25
             CORPORATION FOR NATIONAL AND
                  COMMUNITY SERVICE

     OFFICE OF INSPECTOR GENERAL

                               Hotline


                                             We Want You to
                                              Report Fraud,
                                            Waste and Abuse!



                        ♦   All information is confidential.

                        ♦   You may remain anonymous.


                1-800-452-8210
Contact us by e-mail:                                    Visit our web page:
hotline@cncsoig.gov                                       www.cncsig.gov


                                    Or write:

                              OIG HOTLINE
    Corporation for National and Community Service
        1201 New York Avenue NW., Suite 830
                 Washington, DC 20525
